<html>
<title> - SUBCOMMITTEE HEARING ON MINORITY AND HISPANIC PARTICIPATION IN THE FEDERAL WORKFORCE AND THE IMPACT ON THE SMALL BUSINESS COMMUNITY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





                    SUBCOMMITTEE HEARING ON MINORITY
                     AND HISPANIC PARTICIPATION IN
                     THE FEDERAL WORKFORCE AND THE
                      IMPACT ON THE SMALL BUSINESS
                               COMMUNITY

=======================================================================

           SUBCOMMITTEE ON REGULATIONS, HEALTH CARE AND TRADE
                      COMMITTEE ON SMALL BUSINESS
                 UNITED STATES HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 23, 2008

                               __________

                          Serial Number 110-87

                               __________

         Printed for the use of the Committee on Small Business


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2008
40-857 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001




                   HOUSE COMMITTEE ON SMALL BUSINESS

                NYDIA M. VELAZQUEZ, New York, Chairwoman


HEATH SHULER, North Carolina         STEVE CHABOT, Ohio, Ranking Member
CHARLIE GONZALEZ, Texas              ROSCOE BARTLETT, Maryland
RICK LARSEN, Washington              SAM GRAVES, Missouri
RAUL GRIJALVA, Arizona               TODD AKIN, Missouri
MICHAEL MICHAUD, Maine               BILL SHUSTER, Pennsylvania
MELISSA BEAN, Illinois               MARILYN MUSGRAVE, Colorado
HENRY CUELLAR, Texas                 STEVE KING, Iowa
DAN LIPINSKI, Illinois               JEFF FORTENBERRY, Nebraska
GWEN MOORE, Wisconsin                LYNN WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          LOUIE GOHMERT, Texas
BRUCE BRALEY, Iowa                   DAVID DAVIS, Tennessee
YVETTE CLARKE, New York              MARY FALLIN, Oklahoma
BRAD ELLSWORTH, Indiana              VERN BUCHANAN, Florida
HANK JOHNSON, Georgia
JOE SESTAK, Pennsylvania
BRIAN HIGGINS, New York
MAZIE HIRONO, Hawaii

                  Michael Day, Majority Staff Director

                 Adam Minehardt, Deputy Staff Director

                      Tim Slattery, Chief Counsel

               Kevin Fitzpatrick, Minority Staff Director

                                 ______

           Subcommittee on Regulations, Health Care and Trade

                   CHARLES GONZALEZ, Texas, Chairman


RICK LARSEN, Washington              LYNN WESTMORELAND, Georgia, 
DAN LIPINSKI, Illinois               Ranking
MELISSA BEAN, Illinois               BILL SHUSTER, Pennsylvania
GWEN MOORE, Wisconsin                STEVE KING, Iowa
JASON ALTMIRE, Pennsylvania          MARILYN MUSGRAVE, Colorado
JOE SESTAK, Pennsylvania             MARY FALLIN, Oklahoma
                                     VERN BUCHANAN, Florida

                                  (ii)




                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page

Gonzalez, Hon. Charles...........................................     1
Westmoreland, Hon. Lynn..........................................     3

                               WITNESSES

Hairston, Mr. Darryl, Deputy Associate Administrator, Office of 
  Management and Administration, U.S. Small Business 
  Administration.................................................     4
Kichak, Ms. Nancy, Associate Director for Strategic Human 
  Resources Policy, Office of Personnel Management...............     6
Stalcup, Mr. George, Director, Strategic Issues Government 
  Accountability Office..........................................     8
Gil, Mr. William, Vice President, Hispanic Association of 
  Colleges and Universities......................................     9
Osegueda, Mr. Jose, President and CEO, National Association of 
  Hispanic Federal Executives....................................    12

                                APPENDIX


Prepared Statements:
Gonzalez, Hon. Charles...........................................    26
Westmoreland, Hon. Lynn..........................................    28
Altmire, Hon. Jason..............................................    29
Hairston, Mr. Darryl, Deputy Associate Administrator, Office of 
  Management and Administration, U.S. Small Business 
  Administration.................................................    30
Kichak, Ms. Nancy, Associate Director for Strategic Human 
  Resources Policy, Office of Personnel Management...............    33
Stalcup, Mr. George, Director, Strategic Issues Government 
  Accountability Office..........................................    36
Gil, Mr. William, Vice President, Hispanic Association of 
  Colleges and Universities......................................    56
Osegueda, Mr. Jose, President and CEO, National Association of 
  Hispanic Federal Executives....................................    61

                                 (iii)



 
                    SUBCOMMITTEE HEARING ON MINORITY
                   AND HISPANIC PARTICIPATION IN THE
                    FEDERAL WORKFORCE AND THE IMPACT
                    ON THE SMALL BUSINESS COMMUNITY

                              ----------                              


                       Wednesday, April 23, 2008

                     U.S. House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 12:00 p.m., in 
Room 1539 Longworth House Office Building, Hon. Charles 
Gonzalez [chairman of the Subcommittee] presiding.
    Present: Representatives Gonzalez, Westmoreland, and Moore.

             OPENING STATEMENT OF CHAIRMAN GONZALEZ

    Chairman Gonzalez. I call this hearing to order on the 
Minority and Hispanic Participation in the Federal Workforce 
and the Impact on the Small Business Community. This is a 
hearing of the Subcommittee on Regulations, Health Care and 
Trade of the bigger Committee, the Committee on Small Business, 
as chaired by Rep. Nydia Velaquez.
    And, first of all, I want to thank everyone for being here 
today. This hearing on diversity obviously is very important, 
even in the context of small business, but of course in the 
greater and bigger picture. There are certain individuals that 
I actually have met with before, have worked with, and welcome, 
it is good to see you again.It has been our policy for 40 years 
that the Federal Government should recognize the importance of 
diversity. One of the cornerstones of the Small Business Act, 
for example, is making credit, contract opportunities, and 
business assistance available to all small business owners, 
whatever their background. And that is the American way.
    But in another area where diversity is important is in the 
hiring and promoting of a diverse group of highly qualified 
federal employees. Such a policy ensures that minority groups 
feel welcome to participate fully in the national programs. 
Although we will talk today about government policy that sets 
rules for all federal hiring, I also want to focus attention on 
Hispanic federal employment and the importance it plays in 
serving the growing Hispanic small business community.
    The witnesses will offer testimony today on how it remains 
clear that Hispanic employment lags significantly behind other 
minorities and well below their representative share in the 
civilian workforce. This is a problem and it does not seem to 
be getting any better.
    I represent a district in the State of Texas that has a 
large, vibrant, and growing Hispanic-American community. They 
are proud Americans, and it is important to them to feel 
connected to their government. In the not-too-distant future, 
one out of every four Americans will be Hispanic-Americans.
    Existing law requires the Federal Government to make 
special efforts to evaluate and oversee agency programs for 
diversity. The law provides that recruitment processes prepare 
those that have the potential but do not presently meet valid 
qualification requirements for job openings through development 
programs. Federal agencies are supposed to proactively seek 
those out and prepare those who will help meet the agency needs 
for succession of leadership and competence in the future.
    Unfortunately, the data paints a picture of how the Federal 
Government is missing its mark. In the pathway positions for 
top executive level--and that would be the SES designation--
Hispanic hiring has dropped by 2.8 percent. The latest OPM 
report cites a reduction from 5.8 percent to 3.2 percent of 
Latinos in management positions entering the SES.
    It appears that the majority of Hispanic hires in the 
federal workforce are concentrated at the GS-1 through 8 
categories. So Congress, in our oversight capacity, needs to 
hold agencies accountable. We are working on some proposals 
that would strengthen the hiring process, particularly for 
leadership succession.
    There have been proposals to address this problem. One of 
those is, of course, H.R. 3774, the Senior Executive Senior 
Diversity Assurance Act introduced by our colleague, Mr. Davis 
of Illinois, which has been reported favorably out of the 
Subcommittee on Oversight and Government Reform, and I believe 
will be voted by the full Committee tomorrow.
    The legislation will go a long way in strengthening the 
federal system of selecting our Senior Executive Service. 
However, where I believe further efforts will be needed.
    This Small Business Committee has oversight over the Small 
Business Administration, and I believe there are ways to 
implement reforms at the SBA to serve as a model for improving 
overall federal hiring practices. This could be achieved by 
setting up an office in the SBA that will coordinate and focus 
on diversity hiring and outreach. It would also promote efforts 
to ensure that the review panels and the selection panels for 
SBA executives are themselves diverse.
    Additionally, there needs to be added transparency to SBA's 
executive selection process with data reporting and direct 
annual accountability to the Congress--this transparent process 
not only to the Senior Executive Service but also to GS-13, 14, 
and 15 levels, where SBA's future leaders are retained, 
trained, and encouraged.
    These are just some of the ideas I think we could start 
discussing as a basis for improving hiring practices. I will be 
very interested, of course, in the opinions of the panels here 
today. It is clear that further progress is needed. While there 
have been greater strides made in the past 40 years for women 
and minorities in securing senior positions in our Federal 
Government, it appears that more needs to be done. Without 
additional reforms now, it may create even greater challenges 
down the line.
    I look forward to the testimony of the witnesses here 
today, and thank them for their participation and service.
    And now it is my pleasure and privilege to yield to the 
Ranking Member, Mr. Westmoreland, for his opening statement.

             OPENING STATEMENT OF MR. WESTMORELAND

    Mr. Westmoreland. Thank you, Mr. Chairman, and especially 
thank you for holding this hearing today. I would also like to 
thank the witnesses for their participation, and I am sure that 
your testimony today will prove helpful to us in looking into 
this matter.
    One of the most celebrated aspects of our nation is its 
diversity, and nowhere is that diversity more evident than in 
our workforce. People from all walks of life have helped to 
make their mark on our country, adding a piece of themselves 
into the collection of ideas we call America. I believe that it 
is vital that the composition of the federal workforce resemble 
the great nation that it serves. It is extremely important that 
we continue to attract the best and brightest citizens into 
federal employment in order to address the many challenges that 
we face.
    I welcome this distinguished panel, and I thank you for 
your willingness to come and to testify. And, again, Mr. 
Chairman, thank you for having this timely hearing.

    Chairman Gonzalez. I thank the ranking member. And, as 
always, I have always appreciated his cooperation. And I think 
that we see eye to eye on so many things, contrary to what you 
might be reading in the papers all the time about the 
partisanship, and I look forward to working in the future on 
another hearing that I will be discussing with you probably on 
the floor when we get a minute.
    I would like to give an opportunity to my colleague, Gwen 
Moore, Congresswoman Gwen Moore from the great State of 
Wisconsin, if she so wishes, to make an opening statement.

    Ms. Moore. I will pass, Mr. Chairman.

    Chairman Gonzalez. Thank you very much.
    At this time, I am going to be introducing members of the 
panel, the witnesses here today. I am going to go ahead and go 
through the introductions for all of them, and then we will 
start, of course, with Mr. Hairston.
    Mr. Darryl Hairston of the Small Business Administration 
was appointed as Deputy Associate Administrator for the Small 
Business Administration in September 2003. In that position, 
Mr. Hairston has overall responsibility for contracts and 
grants management, property management, and building 
operations, safety, and emergency services, and administrative 
information management.
    The United States Small Business Administration was created 
in 1953 as an independent agency of the Federal Government to 
aid, counsel, assist, and protect the interest of small 
business concerns. Again, thank you and welcome.
    And now I am going to see if I am going to get your name 
right this time as opposed to the last hearing we had. Nancy 
Kichak--pretty close?--is the Associate Director for the Human 
Resources Policy Division in the Office of Personnel 
Management. In this position, she leads the design, 
development, and implementation of federal human resource 
policies.
    She previously held the position of Deputy Associate 
Director for the Center for Workforce Planning and Policy 
Analysis and Chief Actuary. The United States Office of 
Personnel Management--OPM--is an independent agency of the 
United States Government that manages the civil service of the 
Federal Government.
    Mr. George Stalcup--Mr. Stalcup is a familiar face to my 
office, because of some work we have done in the past. And, 
again, it is good to see you, sir. He is the Director for 
Strategic Issues in the Government Accountability Office. In 
his role, Mr. Stalcup has overseen GAO studies in federal 
workforce and hiring issues. He will report on the GAO's review 
of the minority recruitment and hiring data at the Small 
Business Administration.
    The United States Government Accountability Office, GAO, is 
an independent, non-partisan agency that works for Congress. 
GAO investigates how the Federal Government spends taxpayer 
dollars.
    Mr. William Gil of HACU, the Hispanic Association of 
Colleges and Universities, he is the Associate Vice President. 
HACU was established in 1986 and represents more than 450 
colleges and universities committed to Hispanic higher 
education success in the United States, Puerto Rico, Latin 
America, Spain, and Portugal. It is the only national 
educational association that represents Hispanic-serving 
institutions.
    HACU also provides assistance and outreach to Hispanic-
serving institutions by hosting technical assistance workshops 
throughout the country on available federal programs, grants, 
and other resources. Prior to joining HACU, Mr. Gil served as 
Executive Director of the Congressional Hispanic Caucus. And 
welcome to you.
    Mr. Jose Osegueda--he is President and CEO of the National 
Association of Hispanic Federal Executives. This organization 
is the premier organization advocating for the development and 
advancement of Hispanics to senior-level policy-making 
positions in the Federal Government. Through their events and 
work, they provide networking opportunities as well as training 
to federal employees striving for the highest ranks in public 
service.
    Again, welcome one and all. Please understand that you do 
have five minutes. I think we just had this fancy equipment 
installed in the past few weeks. It will give you a warning 
signal and such. And if you need to summarize, if you would 
please do that. Believe me, during the question and answer 
period, you will be given sufficient time to elaborate if you 
feel you didn't cover it in your opening statement.
    With that, Mr. Hairston.

      STATEMENT OF MR. DARRYL HAIRSTON, DEPUTY ASSOCIATE 
 ADMINISTRATOR, OFFICE OF MANAGEMENT AND ADMINISTRATION, U.S. 
                 SMALL BUSINESS ADMINISTRATION

    Mr. Hairston. Chairman Gonzalez, Ranking Member 
Westmoreland, members of the Committee, my name is Darryl 
Hairston. Thank you for inviting me here to testify on SBA's 
hiring policies and our continuing efforts at minority 
recruitment.
    SBA takes seriously both the spirit and the intent of 
federal guidelines regarding the promotion of diversity in the 
federal workplace, and SBA is committed to addressing the 
diversity of our workforce and to increasing the representation 
of women, minorities, and persons with disabilities.
    As of September 30, 2007, the agency's workforce totaled 
5,056, which included our temporary disaster workforce. 
Minority groups, which accounted for 39.63 percent of the total 
workforce, decreased from 2,635 in fiscal year 2006 to 2,004 in 
fiscal year 2007 due primarily to losses of temporary workforce 
hired to service disaster loans following Hurricane Katrina.
    In fiscal year 2007, SBA had a population of 48.22 percent 
male and 51.78 percent female employees. Twenty-six percent 
were black, 8.47 percent were Hispanic, 4.17 percent were 
Asian, and .93 percent were American-Indian or Alaska Native 
American. Of these groups, black males, black females, Asian 
females, American-Indian or Alaska Native American male and 
female representation was above the civilian labor force.
    Reviews of the grade levels for permanent employees 
indicate that a significant number of the employees--28.88 
percent--at the SBA are at the GS-12 level or above. Current 
fiscal year 2008 data indicates that SBA's total staffing is 
5,034, of which 2,307 are other than disaster employees. Of 
this group, 1,220 are at the GS-13 level or above. 58.9 percent 
are male, 41.1 percent are female, 21.88 percent are black, 8 
percent are Hispanic, 5.49 percent are Asian-Americans, and .73 
percent are American-Indian or Alaska Native American.
    SBA has a total of 39 career employees at the SES level, of 
which 41 percent are minorities. Of these senior executives, 
12.8 percent are Hispanic, 25.6 percent are black, and 2.56 
percent are Asian. Most SES positions at SBA are located in our 
headquarters offices in Washington, D.C. However, seven SES 
positions are located in our major metropolitan district 
offices.
    The SBA is a small agency and does limited hiring on an 
annual basis. For example, in fiscal year 2006, SBA hired 113 
permanent employees, and 128 in fiscal year 2007. When hiring, 
SBA's Office of Human Capital Management strives to ensure 
diversity on our ranking panels. We have found that this 
strategy pays off in increasing diversity in our workforce.
    In fiscal year 2007, the agency employed several 
recruitment strategies to build a diverse workforce. One of the 
most effective tools we use to accomplish this is to actively 
participate in job fairs and federal career days at colleges 
and universities, and we often target schools that are likely 
to help us establish a pipeline of diverse and highly qualified 
individuals.
    We continue to target community colleges because of their 
strong ties to their local communities and their potential for 
providing diverse applicant pools. Some of the events SBA 
participated in are the Presidential Management Fellows job 
fair, the Congressional Black Caucus Diversity fair, the LatPro 
National Society for Hispanic Professionals, and the Thurgood 
Marshall Scholarship Fund recruitment event.
    These efforts only reflect efforts here in the Washington, 
D.C. area, but nationwide our staff participates in job fairs 
with colleges, universities, professional organizations, and 
others to broaden SBA's reach to attract a diverse group of 
high-caliber applicants who are in mission critical positions.
    Additionally, we also utilize USAJOBS as a recruiting tool. 
Because of the technical nature of many of our mission critical 
occupations, we found that the best recruiting tool has been 
word of mouth. By utilizing our network of resource partners, 
educational institutions, and others, we have achieved great 
success in attracting a diverse group of highly qualified 
applicants.
    SBA recruitment initiatives are complemented by two things: 
training and succession planning. The Administrator has made 
training a major priority at SBA and has instituted a new 
personnel-focused training program called SBA University. This 
initiative came as a direct response to employee surveys that 
showed that such a need existed.
    Through training, SBA seeks to develop a highly skilled 
workforce with tools they need for advancement and career 
development. SBA also has its SES candidate program to 
facilitate leadership succession. The last program was run in 
2004. We had 18 individuals selected to participate; 14 
graduated. Of the 18 selected, 2 were Hispanic, 3 were Black 
Americans, and 6 were females.
    Be assured that SBA has been, and will continue to be, 
proactive with its recruitment efforts by building and 
strengthening external partnerships, eliminating barriers that 
may be exclusive, and providing challenging and rewarding 
opportunities.
    Thank you for inviting me to testify, and I would be happy 
to answer any questions you have.
    [The prepared statement of Mr. Hairston may be found in the 
Appendix on page 30.]

    Chairman Gonzalez. Thank you very much, Mr. Hairston.
    Our next witness will be the Associate Director, Nancy 
Kichak.

STATEMENT OF MS. NANCY KICHAK, ASSOCIATE DIRECTOR FOR STRATEGIC 
     HUMAN RESOURCES POLICY, OFFICE OF PERSONNEL MANAGEMENT

    Ms. Kichak. Chairman Gonzalez, Ranking Member Westmoreland, 
and members of the Subcommittee, I appreciate your inviting me 
to discuss OPM's efforts to improve the overall diversity of 
the federal workforce. I welcome the opportunity to discuss 
with you our efforts to build and sustain the most effective 
federal civilian workforce possible.
    We have long recognized that reaching the broadest possible 
pool of applicants for federal jobs is essential to meeting 
this goal. Our efforts in this regard are conducted within the 
framework of the merit system principles. We must ensure that 
all Americans have equal access to federal employment 
opportunities at all levels of the workforce and that their 
knowledge, skills, and abilities are evaluated fairly.
    The Office of Personnel Management promotes federal 
employment expansively, including in the areas where the 
potential applicant pool is very diverse. One of the techniques 
we use is conducting job fairs and federal career days at 
colleges and universities, including community colleges that 
are likely to help us establish a pipeline of diverse and 
highly qualified individuals.
    We conducted a federal career day last year at Northern 
Virginia Community College, one of the nation's largest and 
most diverse community colleges, with students representing 
over 150 nationalities. In addition, two of the four federal 
career days OPM sponsored last fall took place at the 
University of New Mexico and New Mexico State University. These 
are two of the nation's leading Hispanic-serving institutions.
    Earlier this year, OPM supported career fairs at Alabama 
State University and the Tuskegee Institute--two historically 
black institutions. As part of our effort to cast the widest 
possible net, OPM also launched a television ad campaign 
entitled ``What Did You do at Your Job Today?'' to spark 
interest in federal employment. We aired these ads in targeted 
markets where we believe there is likely to be an ample supply 
of individuals who have the qualifications, skills, and 
experience the Federal Government needs in its workforce.
    We have seen a consistent spike in visits to our USAJOBS 
web site after the ads have aired. The ads feature federal 
employees drawn from diverse backgrounds and feature a wide 
variety of professions and agencies. These outreach efforts are 
part of a larger long-term effort designed to address the 
increasing numbers of federal employees becoming eligible for 
retirement in the next few years.
    Succession planning is a crucial element of OPM's efforts 
to develop a strong cadre of future leaders at all levels. 
Major departments and agencies are required, under the human 
capital scorecard in the President's management agenda, to put 
in place an approved leadership succession plan and to meet the 
plan's milestones and targets.
    Candidate development programs are a recommended part of 
agency leadership succession plans. These programs must address 
the executive core qualifications that OPM has identified as 
critical for assessing and developing future leaders. The ECQs, 
as we call them, include fostering an inclusive workplace where 
diversity and individual differences are valued.
    OPM reports to Congress annually on minority representation 
in the Federal Government in relation to the overall civilian 
labor force. Our most recent report was submitted to the 
Congress in January. The report shows that the Federal 
Government continues to compare favorably to the civilian labor 
force in employing minorities, with the exception of Hispanics.
    The Federal Government also employs a slightly lower 
percentage of women than the non-federal sector. The report 
also shows that the overall minority representation has 
continued to grow since the previous report.
    In conclusion, I want to assure you that OPM shares your 
goal of a federal workforce that is effective in large part 
because it draws on the strengths that a broad and diverse 
applicant pool offers. This will continue to be our goal with 
respect to developing our future federal civilian workforce.
    I will be happy to take any questions.
    [The prepared statement of Ms. Kichak may be found in the 
Appendix on page 33.]

    Chairman Gonzalez. Thank you very much.
    Our next witness will be Mr. George Stalcup of the GAO.

 STATEMENT OF MR. GEORGE STALCUP, DIRECTOR, STRATEGIC ISSUES, 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stalcup. Thank you. Mr. Chairman, Ranking Member 
Westmoreland, Congresswoman Moore, I appreciate the opportunity 
to be here today to provide the Subcommittee with information 
on diversity, including Hispanic representation of the federal 
workforce and at SBA. The federal government is facing new and 
more complex challenges in the 21st century, and federal 
agencies must transform their organizations to meet these 
challenges.
    Human capital management must be the centerpiece of any 
serious change management strategy. We have work underway 
reviewing SBA's organizational transformation efforts. Today, 
as requested, my remarks will focus on demographic data related 
to the federal government as a whole, and SBA's workforce, with 
an emphasis on Hispanic representation.
    As you know, Mr. Chairman, in 2006 and 2007 we reported on 
factors affecting Hispanic representation in the federal 
workforce and efforts being taken by agencies to address 
representation issues. Those reports contain data through 
September of 2006. While we have not done any additional 
analysis on Hispanic representation since those reports, for 
this testimony we have added Hispanic representation data for 
2007.
    We have reported that Hispanics are the fastest-growing 
segment of the civilian labor force. And according to OPM's 
central personnel data file, Hispanic representation in the 
federal workforce increased from 6.6 percent in 2000 to 7.7 
percent in 2007. Hispanic representation also increased at most 
agencies during that same span, and at five agencies Hispanic 
representation exceeded the 7.7 percent government-wide 
percentage--DHS, Justice, SBA, SSA, and Treasury.
    Now, of those five, representation at two--Justice and 
SBA--declined between 2000 and 2007. While we have not done 
this analysis, the decline at Justice may be related to the 
establishment of DHS and related movement of staff.
    We also looked at various pay plans and grades across 
government, from blue collar through SES, and found that 
between 2000 and 2007 Hispanic representation increased in 
nearly all categories. As shown in my full statement, at SBA, 
while Hispanic representation remained higher than the 
government-wide percentage within most levels, there was a 
decline in those percentages from 2000 to 2007 in the majority 
of the pay plan/grade categories.
    For SES, we recently looked more closely at representation 
among those who are career, or permanent, appointments. These 
leadership positions are critical. Having a diverse SES core, 
which generally represents the most experienced segment of the 
federal workforce, can be an organizational strength and can 
bring a wider variety of perspectives and approaches to bear on 
policy development and implementation, strategic planning, 
problem solving, and decisionmaking.
    As shown in our full statement, the two greatest changes 
among EEO groups within the career SES government-wide from 
2000 to 2007 was a decrease among Whites and an increase among 
Hispanics. Within the GS-15 and 14 levels, considered the 
developmental pool for the SES, the largest changes from 2000 
to 2007 were a decrease among Whites and an increase among 
African-Americans.
    Similar to government-wide career SES, the two greatest 
changes among EEO groups within the career SES at SBA from 2000 
to 2007 was a decrease among Whites and an increase among 
Hispanics. However, with fewer than 40 total SES members at 
SBA, it should be noted that even small changes will have a 
notable impact on representation percentages.
    Unlike the increase in the number of career SES government-
wide from 2000 to 2007, the number of SESers at SBA declined 
slightly. We did not analyze the factors that contributed to 
changes in SBA's workforce during this period. However, OPM and 
EEOC, in their oversight roles, require federal agencies, 
including SBA, to analyze their workforces, and both the EEOC 
and OPM report annually on government-wide representation 
levels.
    Similar to the government-wide SES developmental pool, the 
two greatest changes among EEO groups within SBA's 
developmental pool from 2000 to 2007 were a decrease among 
Whites and an increase among African-Americans. Hispanic 
representation in the SES developmental pool declined slightly 
at SBA but remained above the Hispanic representation 
percentage for the government-wide SES developmental pool.
    In 2006, OPM reported that approximately 60 percent of the 
executive branch's 1.6 million white-collar employees and 90 
percent of about 6,000 federal executives will be eligible for 
retirement over the next 10 years. Although most employees do 
not retire immediately upon becoming eligible, the looming 
retirement eligibility of federal executives at agencies such 
as SBA present both a need for effective succession planning 
and an opportunity to affect workforce diversity.
    In an October 2007 report, the SBA Inspector General 
identified effective succession planning as a management 
challenge for SBA. SBA acknowledged the need for additional 
efforts in this area and has taken some positive steps.
    This concludes my remarks, and I will be happy to answer 
any questions.
    [The prepared statement of Mr. Stalcup may be found in the 
Appendix on page 36.]

    Chairman Gonzalez. Thank you very much, Mr. Stalcup.
    Our next witness will be William Gil, Vice President of the 
Hispanic Association of Colleges and University. Mr. Gil.

    STATEMENT OF MR. WILLIAM GIL, VICE PRESIDENT, HISPANIC 
            ASSOCIATION OF COLLEGES AND UNIVERSITIES

    Mr. Gil. Good morning, Chairman Gonzalez, Ranking Member 
Westmoreland, and other distinguished members of the 
Subcommittee. HACU welcomes the opportunity to provide insight 
on the critical role we are playing in assisting increase 
Hispanic representation in the Federal Government.
    HACU represents over 450 colleges and universities 
committed to higher education success in the United States and 
Puerto Rico. Collectively, these institutions enroll more than 
4.8 million students. There are almost two million Hispanics 
enrolled in college today, with HACU member institutions 
enrolling 1.2 million of these students. HACU is the only 
national education association that represents Hispanic-Serving 
Institutions.
    As we have heard from Chairman Gonzalez, due to the 
increase in the Hispanic population, it can be said that our 
nation's economic and social success rests on the level of 
skills and knowledge that Hispanics will attain. Education 
indisputably is the key. HACU is committed to Hispanic success 
in education.
    To this end, HACU maintains more than 30 formal memoranda 
of understanding and partnership agreements with federal 
agencies, offices, and businesses, to increase infrastructure 
at member institutions and create opportunities for their 
students. One of the most highly regarded programs for 
introducing Hispanics into careers in the Federal Government is 
the HACU National Internship Program.
    This program began in 1992 with 24 students working in 
Washington, D.C. The success of this initial endeavor led to 
the rapid expansion of the program to other federal agencies. 
For example, during 2007, the program welcomed 626 students 
participating in 25 federal agencies and 6 private corporations 
in Washington, D.C. and throughout the entire country.
    These individuals came from 34 states and Puerto Rico. The 
academic background of these students were also diverse in that 
they represented 100 different academic majors, including 
engineering, human resources, communications, business, 
finance, electronics, computer science, law, and law 
enforcement, among some of the ones we would like to mention.
    The program has also been well recognized for its 
contributions. For example, the HACU National Internship 
Program is point 4 in OPM's nine-point Hispanic employment 
plan. Moreover, OPM Director has also recognized that the 
internship program and the HACU Cooperative Education Program 
as best practice tools for the recruitment of Hispanics into 
the federal workforce. Both programs directly respond to 
Executive Order 13171.
    The benefit of partnering with HACU is that we complete a 
lot of the groundwork for federal agencies for recruiting at 
member institutions, prescreening in matching a student's 
academic background with an agency's mission critical 
occupation needs. We also coordinate the student's travel and 
facilitate housing.
    Through partnering with HACU, federal agencies have been 
able to offer internships and permanent positions for thousands 
of Hispanics. Over the past 15 years, the program has provided 
professional development opportunities for over 7,000 students. 
To measure the impact of the program, an independent analysis 
was completed in 2007. The results show that the program 
clearly increases professional career opportunities for program 
participants and is truly a best practice in the recruitment of 
Hispanics in the federal workforce.
    Survey highlights include: as a result of the internship 
experience, over 90 percent of the participants consider 
working with the Federal Government. That is a 44 percent 
increase compared to their intentions prior to completing their 
internship. Nearly 38 percent of the survey respondents now 
work in the Federal Government. Eighty-five percent of the 
participants expect that their internship experience will be 
useful to them 10 years from now.
    The report's conclusion was that the program has changed 
the lives of many students for the better. It has fostered 
learning and development career abilities and provided the 
Federal Government and other agencies with an educated, 
experienced pool of potential employees.
    Internship programs like the HACU National Internship 
Program are critical to bridging the chasm that currently 
exists between Hispanic college students and federal agencies 
by introducing college students to the opportunity that that 
exists in the Federal Government and addressing the desire to 
become part of the federal workforce.
    Since 2000, Hispanics have accounted for half of the 
population growth in the United States. However, Hispanics are 
the only underrepresented ethnic group in the federal 
workforce, comprising 7.7 versus 13.3 of the civilian labor 
force. As the numbers of enrolled Hispanics in the United 
States increase and improve, the percentage of Hispanic 
representation in the Federal workforce is not keeping pace.
    As we all know, studies estimate that the Federal 
Government may lose almost half of its workforce in the next 
decade. One of the most obvious recruitment strategies is that 
federal agencies should conduct outreach and recruitment 
activities where Hispanic students are found in higher numbers. 
Specifically, federal agencies need to develop strategic 
partnerships with Hispanic-Serving Institutions, since they 
enroll the majority of Hispanics in college today.
    Federal agencies should also look to establish and maintain 
lasting relationships with HSIs, the department and schools 
where they find students, and agencies should look to increase 
the number of Hispanic students at participating existing 
federal student programs.
    Lastly, federal agencies should develop an effective 
student internship program with Hispanic organizations that 
have access to Hispanic college students that can serve as 
third party internship providers.
    A truly representative government workforce is an important 
public policy goal, since it affects the government's ability 
to meet the needs of its citizens.
    That is the end of my statement, and I am happy to answer 
any questions.
    [The prepared statement of Mr. Gil may be found in the 
Appendix on page 56.]

    Chairman Gonzalez. Thank you very much, Mr. Gil.
    The testimony will now be heard of Mr. Jose Osegueda, 
President and CEO for the National Association of Hispanic 
Federal Executives.

  STATEMENT OF MR. JOSE OSEGUEDA, PRESIDENT AND CEO, NATIONAL 
           ASSOCIATION OF HISPANIC FEDERAL EXECUTIVES

    Mr. Osegueda. Chairman Gonzalez, Congressman Westmoreland, 
and members of the Subcommittee, thank you for the opportunity 
to appear before you today.
    I recently retired from the Federal Government, and I am a 
live witness of the difficulties facing Hispanics in our quest 
to reach the highest ranks of public service. NAHFE is an 
organization that represents all senior-level Hispanics in the 
Federal Government, and I am proud to speak on their behalf 
here today.
    The current selection methodology for senior-level 
positions in the Federal Government has not produced any 
improvement on Hispanic representation at the senior levels of 
the Federal Government workforce. Hispanics represent 3.6 
percent of the career SES cadre, while making up 13.8 percent 
of the national civilian labor force. Using the most 
conservative calculations, this means that Hispanics today are 
underrepresented by close to 500 career SES positions.
    To make matters less encouraging, Hispanic representation 
at the feeder positions leading to the career SES level 
declined by 2.8 percent, or 579 positions, from 2006 to 2007. 
Without a robust presence in the feeder pipelines, and strong 
measures of accountability, future Hispanic representation at 
the senior-level positions in government will only get worse.
    NAHFE believes one answer to successfully diversifying the 
senior-level ranks of government is to set in place and to 
enforce meaningful systems of accountability, so that managers 
and supervisors may be held accountable for effectively 
carrying out their legal mandate to implement and promote equal 
employment opportunity and diversity programs.
    In fact, a number of accountability tools are already in 
place. They just haven't been effectively monitored or 
enforced. This culture of non-accountability has resulted in 
disgraceful levels of Hispanic representation at SES levels in 
federal agencies that should be leaders in diversity.
    That Hispanic underrepresentation in the federal workforce 
has reached crisis proportions is clearly illustrated by these 
telling statistics. Hispanics remain the only underrepresented 
ethnic group, at 7.7 percent, in the overall government 
workforce. When compared to their present level of 
representation in the national civilian labor force, 13.8 
percent, there is a Hispanic underrepresentation gap of 6.1 
percent or 120,000 jobs, at $5.5 billion in salaries alone, to 
the Hispanic community.
    With the average hiring rate of .13 percent over the past 
40 years, Hispanic representation in the federal workforce will 
never reach parity with their numbers in the national civilian 
labor force.
    NAHFE fully supports the Subcommittee initiative to 
introduce legislation to establish an Executive Resource Office 
within the Small Business Administration to ensure the SBA 
executives reflect the nation's diversity. NAHFE has 
consistently emphasized the need for accurate and timely data 
on current positions of filled, vacant, and candidate for 
career SES positions.
    The responsibility for accountability in diversity 
selections rests with the recruitment and selection process. 
And the record speaks loud and clear that leaving independent 
authority for ensuring diversity in career SES selections with 
agencies will not improve the dismal bottom line. One only need 
to look at the current level of Hispanic representation in 
several key executive agencies to understand it is time to 
abandon the failed SES selection methods of the past and turn 
to new, creative ideas for improving diversity at the senior 
levels of government.
    For these reasons, NAHFE supports and commends the 
Subcommittee for introducing legislation that will create the 
accountability part of the process that has been missing all 
along. NAHFE shares the goal of bringing greater diversity to 
the federal executive corps.
    We do not believe that continuing to rely on the failed SES 
selection methodology of the past will yield different, more 
positive results. It is time to turn over a new leaf and 
dramatically improve the SES selection process. We believe that 
they will signal a welcome change toward improving diversity at 
the senior levels of government.
    Chairman Gonzalez and members of the Subcommittee, I thank 
you for the opportunity to share our views and support for the 
SBA Executive Diversity Act.
    [The prepared statement of Mr. Osegueda may be found in the 
Appendix on page 61.]

    Chairman Gonzalez. Thank you very much, Mr. Osegueda.
    The chair is going to recognize himself for five minutes of 
questioning. And I am going to keep to my five minutes, because 
I know the other members--we started at kind of an awkward 
hour, but this was the only time that was going to be available 
given our schedule. But I will reserve the right to actually 
follow up on some other questions, because I know I am not 
going to get everything out in five minutes.
    So I will start my five minutes now. And I guess the 
question will go to Mr. Stalcup to kind of get an overview of 
the process or mechanism that we have at the federal level to 
ensure that, whether it is legislation or through regulation or 
through executive order, that a real effort is being made by 
the agencies and departments of the Federal Government to have 
a diverse and very qualified workforce.
    But who is truly responsible, one, for identifying best 
practices, making recommendations to all of the governmental 
agencies, departments, and entities as to what they should be 
doing. And, of course, I think as Mr. Osegueda may have already 
alluded to, and monitoring, because we have had this discussion 
before, and I think I know the answer, but you are the GAO, and 
basically you identified the different entities that have 
different responsibilities.
    So what would be your answer?
    Mr. Stalcup. Well, to a large extent, those 
responsibilities are shared between EEOC and OPM. Both 
organizations require agencies to analyze their workforces--and 
in the end, under any scenario, that is step one. They need to 
understand their workforces, not only just in terms of numbers, 
but how they align with agency mission and what the needs are.
    Both EEOC and OPM require agencies to annually report on 
what they are doing in terms of identifying any barriers that 
are there and what they are doing to address those barriers. In 
the study that we did with you, Mr. Chairman, we looked at how 
OPM and EEOC carried out this function on a government-wide 
basis, and they do collect this information, they do summarize 
it, and they do annually report to Congress on those numbers.
    What we have not looked at--and it is a fair question--is 
what those organizations are doing directly with the agencies 
based on what is reported to them.
    Chairman Gonzalez. And I know that when GAO assumes one 
of--responsibility that Congress will make a request that you 
will assume--you are very, very careful to always stay within 
the guidelines or boundaries of what is being asked and not to 
expand or go beyond. And I know when we were talking about 
diversity in numbers, you usually will identify how an agency 
or a department may be meeting those particular numbers, what 
policies, and so on. Then, you look at OPM, EEOC, and what they 
are doing.
    But do you identify, or has that ever been part of your 
charge, to identify what would be the best practices, or any 
shortcomings in identifying best practices? It has been my 
experience that basically you can give us a birds-eye view of 
where we are and where the numbers, but not necessarily, again, 
policy-wise. Are the policies good policies? Are the policies 
effective? Should they be doing something else? Should there be 
some sort of an accountability mechanism?
    Have you ever looked at that? And if you have, if you could 
tell me what you think you have found.
    Mr. Stalcup. We have looked at that, Mr. Chairman. We did a 
fairly robust study going back several years. The report came 
out in 2005. What we did was we surveyed experts throughout the 
country in all levels and disciplines to get ideas about what 
they thought were the keys to good diversity management.
    We then built a list of best practices based on what we 
learned from those folks. There are eight or ten practices on 
there. It starts with top leadership commitment. It involves 
recruitment, it involves succession planning. It involves 
integrating human capital into the strategic plan.
    And we went out to select agencies, I believe it was five 
agencies, and looked at how those kinds of things--what they 
were doing in those areas in terms of techniques and what 
worked well. And that report is available on GAO's web site. It 
is a very good report, has a lot of good information in it.
    Chairman Gonzalez. Thank you very much.
    And then, this question is to Ms. Kichak. And that is, I 
think we understand the role that you play and that you 
outlined in your testimony. And I have less than a minute, but, 
quickly, what about--I know that you make suggestions, you 
identify best practices, and you kind of monitor and, again, 
evaluate. Is there any accountability if in fact you identify 
an agency or a department that is not following those 
suggestions or recommendations that you promulgate?
    Ms. Kichak. Okay. The method of accountability for us is 
through the federal human capital scorecard and reporting on 
their--on agencies' activities to build a diverse workforce. 
And that is the scorecard that is the red, yellow, green rating 
for agencies, and that shows how they are progressing. That is 
our accountability.
    Other than the report that we publish, the Hispanic report 
is very extensive as far as the data it reports, and it shows 
the data per agency. So there is also the publication of how 
agencies are doing, the shining the light on their data.
    Chairman Gonzalez. Well, thank you very much. And my time 
is up, but we will come back and follow up with the other 
witnesses.
    It is my pleasure to recognize the Ranking Member, Mr. 
Westmoreland, for any questions he may have.
    Mr. Westmoreland. Thank you, Mr. Chairman.
    Mr. Hairston, you got pretty specific with the percentages 
of the minorities at the SBA. Is there--do you look at those 
numbers when jobs become available? Is there a magic number 
that you try to keep minorities at when you are hiring in--you 
know, I mean, how does that play into the hiring?
    Mr. Hairston. Well, first and foremost, when we are 
recruiting and hiring, we are first and foremost trying to make 
certain that we abide by merit principles and hiring in the 
federal sector. But as we hire for our mission critical 
positions, as I mentioned earlier, we do do extensive outreach 
in recruiting. We have been very successful using our network 
of partners and organizations to get the word out about mission 
critical jobs.
    And for the most part our practices are, and have been, to 
make certain that we have diversity in our ranking and 
reviewing panels, and that when we are actually recruiting for 
what we consider to be our mission critical positions, that we 
are able to develop what we consider to be a diverse, highly 
qualified applicant pool, and in making those selections that 
we are trying to make the best selections we can make.
    Fortunately, in doing so, we have been successful in 
attracting good applicant pools, and we have made those 
selections based on the qualifications of the individuals that 
applied, and we have been able to achieve these numbers. I 
think what is important is is that it is a common practice for 
us. We hold ourselves accountable for achieving those results.
    Our human capital office and our EEO office collaborate 
very closely on an ongoing basis, so we are always aware of 
where we stand in respect to these types of numbers and our 
diversity in the workforce. But, more importantly, we value the 
quality of the diversity. And I can't honestly say that every 
time that we have a position on the street that we are looking 
at these numbers and keeping that in mind.
    Mr. Westmoreland. Thank you. I am going to call you Mr. O, 
if that is okay. Mr. O, is the Hispanic community--and, Mr. 
Gil, you can jump in on this, too--are you satisfied with the 
numbers that are at the SBA or in the federal workforce as a 
whole?
    Mr. Osegueda. Certainly not. We are looking at historic 
data, and we have come to the conclusion that Hispanic 
representation--that Hispanics are underrepresented government-
wide and especially at the SES level. As I indicated earlier, 
we have some data to substantiate this.
    There are at least 500 positions that could be filled by 
Hispanics, if we are going to reach parity. Hispanics are the 
only ethnic minority that is underrepresented in the Federal 
Government.
    Mr. Westmoreland. Do you think, from the explanation Mr. 
Hairston just gave, which I thought was a very good explanation 
of the hiring practices, do you think there is anything that 
they need to do to improve on that? Or did that sound fair to 
you, what he mentioned?
    Mr. Osegueda. One of the things that we advocate is to be 
at the table when the selection process takes place. But one of 
the things that we have complained in the past is that the 
actual data of SES positions available, filled, and the 
candidates who apply for these positions is not really 
available.
    So we cannot really tell you, okay, these are the many 
positions in the Federal Government at the SES level. These are 
the efforts for individual agencies to recruit for these 
positions and who, in fact, is applying for these positions and 
who is actually selected.
    Mr. Westmoreland. Mr. Gil?
    Mr. Gil. I would concur with Mr. Osegueda's comments. I 
guess the largest issue for the Latino community is the lack of 
clarity in the selection process that currently is in place. 
And so, in that sense, we want to be equitable partners in the 
process. However, we have no--we don't really know what we are 
trying to--
    Mr. Westmoreland. I guess my question, you know, boiled 
down to: do you think that the Hispanic worker or applicant 
needs to have an advantage over anybody else? And, if you do, 
at what percentage do you think that the Hispanic workforce 
needs to be at?
    Mr. Osegueda. Our position is that we want to have the 
opportunity--I don't think we are claiming here to have an 
advantage on anything, but to have the opportunity to compete 
and to be at the table when the decisions are made.
    Mr. Gil. We are essentially saying that we let--we request 
nothing more or less than effective federal outreach in hiring 
and employee retention. We simply request a fair chance.
    Congressman, I think what the Latino community's concern is 
is the long-term impact, especially as our community continues 
to grow in demographics and numbers, and the long-term 
implications for the United States in having individuals in 
positions of power who are making decisions about our 
community. We may not have individuals within those ranks who 
know what these impacts may have.
    We are not asking for a certain number or making this a 
civil rights issue. We are just asking for the opportunity to 
be part of the process.
    Mr. Westmoreland. And I appreciate it, and hopefully we 
will have a chance to come back and ask some more. Thank you 
very much.
    Chairman Gonzalez. Thank you, Mr. Westmoreland.
    The chair will recognize Ms. Moore for any questions she 
may have.
    Ms. Moore. Well, thank you so much for convening this 
distinguished panel, Mr. Chairman.
    I guess I will get right to the questioning and briefly ask 
Mr.--maybe it is not an appropriate question for Mr. Hairston. 
Maybe it is more an appropriate question for Ms. Kichak or Mr. 
Stalcup. But I want to refer to Mr. Hairston's testimony.
    You mentioned that the workforce at the SBA lost 631 people 
due to losses in your temporary workforce hired to service 
disaster loans from Hurricane Katrina. Is that a typical entry 
point into the Federal Government, to hire minorities for 
temporary--as a temporary workforce, I can imagine--and correct 
me if I am wrong, Mr. Hairston--that there were lots of needs 
for translation and other services that only perhaps Hispanics 
or others could provide, and you hired that temporary 
workforce.
    Is there any formal sort of effort to harvest those 
temporary work experiences, to put them in the queue for upward 
mobility?
    Mr. Hairston. I would certainly say that when we ramp up 
for disaster activity, and particularly the magnitude of 
Hurricane Katrina, we are reaching out and hiring as many 
people from all walks of life as we can possibly do as fast as 
we can. We also do keep in mind the fact of the diversity of 
the population that we have to serve during those disaster 
times, and when we do have the opportunity to find individuals 
who are bilingual or representative of the communities that are 
affected, we certainly take advantage of that.
    To say that that is a good entry point, you would have to 
say that it is a good entry point, because while they are 
making disaster loans, they are also having the opportunity to 
become familiar with SBA programs and SBA--
    Ms. Moore. I don't want to be rude, but I want to ask the 
OMB and GAO, is there some articulation between--first of all, 
how widespread is this temporary hiring among federal agencies, 
not just the SBA, and is that, you know, for contract work? And 
is there some formal effort to articulate that into full-time 
positions?
    Ms. Kichak. I will take a crack at that. There are lots of 
temporary jobs filled every year, but they are temporary. In 
fact, more jobs are filled on a temporary basis than on a 
permanent basis during the year. It depends on how the 
temporary jobs are filled, but generally they are non-
competitive. So they include our summer hires and our seasonal 
workers and things like that.
    Ms. Moore. Okay. Are there different qualifications for--
other than taking the test? I mean, other than getting--these 
same folk that are hired for temporary workers, would they in 
fact qualify for a regular federal job?
    Ms. Kichak. They would need to compete for that job. 
However, their experience as a temporary worker would be very 
valuable in helping them compete favorably.
    Ms. Moore. Are there any formalized programs to say, ``Hey, 
you have been a temporary worker, we have this fast-growing--we 
have this Executive Order''--and I--with all due respect, this 
is a civil rights issue. To have the fastest-growing population 
in the United States be woefully underrepresented in the 
delivery of Federal Government services.
    So is there any--so, Mr. Chairman, all I am doing with this 
line of questioning, because I am going to run out of time, is 
just suggest that, in addition to the amazing work that Mr. 
Gil's organization has done, that the Hispanic Federal 
Executives Association is doing, that this might be a more 
straightforward sort of way of doing it.
    I guess I would like to ask a question of Mr. Osegueda 
regarding the--his assertion that without a robust presence in 
the feeder pipelines, and strong measures of accountability, 
future Hispanic representation at the senior level of 
government will only get worse.
    You have talked a little bit about how there is no 
accountability for meeting the executive orders, and I guess I 
would like you to expand on that in the remaining time.
    Mr. Osegueda. Yes. I didn't mention this, but it is 
included in my notes, that the EEOC has failed to enforce the 
uniform guidelines on employee selection procedures to monitor 
agency selection practices. OMB and OPM have rubber-stamped 
agency progress in implementing the diversity component of the 
President's management agenda for the management of human 
capital.
    And we believe that OPM has failed to effectively monitor 
and enforce the principles of the Executive Order 13171. So 
that is what we are talking about accountability. And what we 
think is that no agency is actually enforcing these diversity 
practices. So agencies are independently doing what they are 
doing, and that is the reason why the hiring of Hispanics is--
for the past 44 years has been .13 percent.
    Ms. Moore. Okay. So no one is enforcing what they are 
doing. They are just doing their own thing.
    Mr. Osegueda. That is what our observation is. So that is 
the reason we support this type of legislation. We think that 
it is going to bring into the process that measure of 
accountability that we think we are missing.
    Ms. Moore. Thank you. I have other questions, but I can see 
my time has expired, Mr. Chairman. I yield back.
    Chairman Gonzalez. No, no. Thanks very much. I think it was 
very insightful, your line of questioning. And the chair is 
going to recognize himself for some follow-up questions, and 
then, of course, the other members will be also recognized.
    Ms. Kichak, the problem that Congress has, as I see it--
this is my own view of it--is that we understand we have a 
couple of agencies out there. We have OPM, and we have EEOC, as 
Mr. Stalcup has pointed out, that kind of oversees all of this. 
But as other witnesses have also pointed out, I think the 
problem is always going to be accountability.
    So even if you are identifying shortcomings, promoting best 
practices, and an agency or department doesn't follow through, 
the worst thing that could happen to them is they get a failing 
mark on a scorecard, or there is a newsletter or publication or 
a site somewhere that says you didn't do very well.
    But it has been my experience, working with Chairwoman 
Nydia Velaquez, that scorecards don't mean very much to an 
agency or a department if there aren't any consequences. The 
example I always give is that on bundling in federal 
contracting, which is a real problem, whether you are 
Republican or Democrat, we believe small businesses should have 
these opportunities.
    Over and over again, each and every department out there of 
the Federal Government fails to meet its contractual 
obligations, as we see it, to make sure the opportunities are 
extended to small businesses. So we give them an F, we give 
them a D. The highest one I think is a C. Nothing ever changes. 
And I have always said, ``Well, there is no accountability. 
There is no consequence.''
    And I don't want to say there should be punishment. I am 
not sure what we do about accountability. I don't know what an 
agency or a department that fails to institute that which you 
are promoting and identified as good practices and continue to 
fail and be more aggressive in meeting numbers on diversity, I 
don't know what you do. I am not even going to give you that 
answer. I am not real sure. You know, I always think it is 
always about budgets, but that is an argument for another day.
    So I think Congressman Davis--and I am not speaking for Mr. 
Davis, or any of the other members of the Oversight Committee, 
but I think what they are trying to say is, well, maybe if we 
have someone within OPM that will be--may be more aggressive 
about the manner in which you identify different approaches 
that you will be recommending to agencies, and you still follow 
through, and even then, within those agencies or departments, 
even having, again, a more diverse panel that will be looking 
at hiring practices, so that whatever you promulgate, as it 
filters down to agencies and departments, you actually are 
mirroring a panel that will be composed--obviously, I think the 
way Mr. Davis has it I think he has, you know, a woman and then 
a person of color, and so on, that would be on this panel.
    I think at the last hearing that I attended with Mr. Davis 
you did not embrace that piece of legislation. I am not 
speaking for you. Do you oppose that particular recommendation 
or suggestion?
    Ms. Kichak. We believe very strongly that the panels should 
consist of diverse individuals. We do--we agree in principle 
that that is important. We have issued guidance that tells 
folks to comprise their panels and SES selection from a broad 
spectrum of employees to make sure that there is 
representation.
    What we object to, or don't support in that legislation, is 
the mandatory nature of that. Every time the way--the way we 
read the legislation every time a panel is drawn, it has to 
have a certain makeup. And we just think that is too 
restrictive. You might know that OPM has been working very 
hard. We have an SES pilot starting to try to do things in a 
more efficient manner, try to encourage hiring by making the 
process not so cumbersome. And we think that's just too 
restrictive.
    Chairman Gonzalez. Okay. Thank you. The next question in 
the following up is going to be with Mr. Gil and Mr. Osegueda. 
I think there is a perception out there that it takes a little 
bit more work, a little bit more effort, to identify a minority 
applicant. The pool may not be as great, it takes a greater 
effort, it definitely is more targeted. For instance, I think 
we have already had Ms. Kichak indicate that they go to these 
universities that have high minority representation in the 
Latino community and such.
    Recognizing that--and, again, I don't speak for Mr. Davis--
but I would imagine that the motive behind this is to, in a 
way, institutionalize within OPM and within every department 
and agency the sensitivity based and predicated on the 
composition of these panels.
    Do you believe that that is an appropriate approach to make 
sure that whatever OPM is doing is--one, that it does identify 
that which is most effective; and, secondly, that the 
departments and agencies to which they are communicating these 
suggestions are in fact taking them seriously and implementing 
those policies? Mr. Gil? Or Mr. Osegueda?
    Mr. Osegueda. We think that we should have an opportunity 
to be there when those decisions are made. But the thing here 
is that if we don't have this access to this data that says 
that--how many people are applying, who these people are 
applying for these SES positions, we can't really tell you 
whether Hispanics are applying or not.
    But we have contended every since--for the last couple of 
years that there is no lack of talented and qualified Hispanics 
for SES positions. We are out there. We are not--the Federal 
Government is not making the effort to in fact prepare, 
develop, and provide opportunities for development for these 
people to actually compete for SES positions.
    I don't think that it is the fact that we are not there. I 
don't think it is the fact that we are not applying. I don't 
think it is the fact that we are not qualified for that and we 
are not interested in being in SES positions. Our position is 
that there are now opportunities, and we have been 
discriminated for a long time, and we have been passed for 
promotions for a long time, as we have indicated here with the 
data.
    So we think that without those measures of accountability, 
and ever since Executive Order 13171 came up, we don't see this 
accountability being in place. We think that by having these 
panels then that measure of accountability is incorporated into 
the agency diversity initiatives.
    Chairman Gonzalez. And, Mr. Gil, do you have an opinion on 
this?
    Mr. Gil. Mr. Chair, I will address it more in the aspect of 
opportunity regarding within the Federal Government. Studies 
show that less than 25 percent of all college students ever 
think about working for the Federal Government as a career 
choice, the largest employer in the United States.
    What we have seen, as a result of participating in 
opportunities such as the ones that we offer, is that their 
interest in working for the Federal Government increases 
tremendously. As I reported, 90 percent now would consider 
working for the Federal Government as a career choice. That is 
a tremendous chasm that has been bridged with just a 10-, 15-
week opportunity.
    I think that this is is important as a pipeline issue, 
because it is easier to get in at the entry level than through 
the more senior ranks. So what we are trying to do is provide a 
pipeline for those individuals for the long-term viability of a 
workforce in the United States.
    So I commend OPM and other federal agencies that look at 
this as a long-term human resource issue, because they are 
starting to see that they need to go where the Latino students 
are by partnering with Hispanic-serving institutions.
    Chairman Gonzalez. Okay. Thank you very much, Mr. Gil.
    The chair is going to recognize the Ranking Member, Mr. 
Westmoreland.
    Mr. Westmoreland. Thank you, Mr. Chairman. This will be my 
last round of questions. I have got to go somewhere else.
    But it is very interesting. I am interested to know what 
Mr. Gil and Mr. O would do with these numbers that you get. I 
mean, how would you use those numbers to help you better 
understand if Hispanics were being discriminated against or 
not? Because unless you really read the whole job application 
and had--you know, you wouldn't really understand how those 
numbers related.
    Mr. Osegueda. First of all, we need to know exactly how 
many SES positions are vacant. And we need to know what are the 
efforts of the agencies as recruitment is concerned. But, then, 
we need to know how many or who are the people who are applying 
for these SES positions. Are Hispanics actually applying for 
these positions and are not being selected on a consistent 
basis? If that is the case, then we can have an argument that 
either we are not prepared to compete for those positions or 
there is a discriminatory practice.
    Now, if we are not present when those evaluations are made 
at the panel level, then we don't even know why is it that this 
particular applicant was not selected.
    Mr. Westmoreland. Mr. Gil, with HACU, you have an intern 
program that I guess you have got some agreements with the 
government or this is something that you offer Hispanic 
students, to go into this internship, correct?
    Mr. Gil. Correct. Those are public through RFP process with 
federal agencies, that they set up their own individual 
requirements, and then they put it out in the Federal Register 
for associations or companies or individuals to compete for.
    Mr. Westmoreland. Do you have any problem with those 
numbers?
    Mr. Gil. In regards to specifically what, sir?
    Mr. Westmoreland. Is it enough? I mean, you have got I 
think you said 4.8 million students, and I don't know how many 
are offered these internships.
    Mr. Gil. We place approximately 620 students per year. We 
have every summer, for example, sir, nearly 2,000 eligible 
applicants. Those are individuals that have over 3.0 and above 
and over a multitude of different disciplines that would be 
perfect candidates for not only the public sector but for the 
private sector.
    So what we do is to open doors of opportunity, and for all 
of these students to get valuable work experience.
    Mr. Westmoreland. Who controls those numbers, though, is 
what I am asking I guess.
    Mr. Gil. It comes straight from the federal agencies. They 
provide us with their interest and their specific requirements, 
what they are looking for, X, Y, or Z individual in Washington, 
D.C., or it can be Alaska or it can be Forest Service, you 
know, in Provo, Utah, and they let us know what type of 
individual they are looking for. We then facilitate those 
individuals.
    Mr. Westmoreland. And I am assuming that the historical 
black colleges and universities have these same opportunities 
with the federal--
    Mr. Gil. That is correct.
    Mr. Westmoreland. --program also.
    Mr. Gil. That is correct. There are also Native American 
and African-American. It is identified in many federal agencies 
as minority-serving programs.
    Mr. Westmoreland. Thank you. I yield back the balance of my 
time.
    Chairman Gonzalez. Thank you very much. Appreciate your 
participation today.
    And the chair will recognize Ms. Moore.
    Ms. Moore. Well, thank you again for the opportunity to 
have a second round. I just wanted to mention to Ms. Kichak 
that I can see from your testimony that you have never been to 
Milwaukee, Wisconsin. I see that as a terrible failure of the 
Federal Government to recruit on very fertile ground.
    We have a very fast Hispanic--growing Hispanic population. 
I think we are only second to Indiana in terms of the fastest-
growing Hispanic population. We have I think the youngest 
African-American population in the country. It would be a 
fantastic and welcoming activity to have someone from the 
personnel management agency come out.
    I guess I wanted to sort of ask Mr. Gil--and I think my 
colleague, Mr. Westmoreland, has asked a lot of questions about 
the internships--these internships are funded for all of the 
agencies, for any agency?
    Mr. Gil. Each individual agency makes their own internal 
decision on how many students that they have. Usually it is a 
federal agency-wide procurement opportunity, and individual 
bureaus utilize that mechanism to hire the students.
    Ms. Moore. Okay. Do you find that you always have enough 
students to fill these slots, or are you--do you find yourself 
short of slots or waiting lists, or are there adequate numbers? 
Do you wish there were more opportunities?
    Mr. Gil. Absolutely.
    Ms. Moore. Okay. Let me ask a question. In terms of the 
types of students that are recruited for these programs, are 
there--many of these students may come from--may be very 
capable but may come from families who don't necessarily have 
money to totally and completely support this activity.
    I mean, they can't--you know, I think they--every parent 
sort of hustles up enough money to get clean underwear for 
their kids, so that they won't be embarrassed when they come to 
Washington, D.C., or go wherever. But are all of the expenses 
paid so that you don't find yourself only recruiting those 
middle class students who can take advantage of this 
opportunity?
    Mr. Gil. Thank you, Congresswoman, for allowing me to 
expand on the nuances of the program. It is truly unique that 
all of these internships are paid, 100 percent paid.
    Ms. Moore. Okay.
    Mr. Gil. In addition to we help facilitate roundtrip 
airfare for the student at no cost to the student. We also help 
facilitate housing. I always put it in the lowest common 
denominator. This may be the first time they are flying in a 
plane, much less arrive to Washington, D.C., Reagan National 
Airport, and know exactly where they are going to live for the 
summer.
    And so we actually meet with the student at the airport, 
transport them to their location, transport them for a full 
two-day orientation so they feel much more fully prepared, 
create a sense of a safety net, for lack of another word. We 
also provide them with access to alumni.
    So we are happy to report that once a student starts a 
program, we have a less than one percent attrition rate for the 
students that leave the program. But I do believe that the 
critical aspect is that they are all paid.
    Ms. Moore. Ms. Kichak, I just want to ask you a question 
before my time expires. You know, we have--and I think, you 
know, Mr. Westmoreland may have touched on this a little bit. 
We sort of have sort of schizophrenia in this country as it 
relates to affirmative action and creating opportunities for 
minorities, the whole immigration policy.
    Are these conflicts in the American political dialogue, do 
you think that they hamstring the agency in terms of actually 
implementing the executive orders and actually--because we 
heard a lot of frustration from Mr. Osegueda that in fact we 
are woefully behind, and Mr. Gil is saying we could do more.
    Do these cultural sort of warfare issues, do you believe 
that they perhaps impede your ability to fulfill this mandate?
    Ms. Kichak. I don't think so. I think, number one, we do 
agree that there needs to be more progress. So we are not 
comfortable with where we are. But we think we have the 
opportunity to do that.
    I think we feel that if we do more job fairs in the right 
places, if we participate in more activities with folks like 
HACU--and OPM does have a contract with HACU--that we can make 
progress. And, again, it is some of the--yes, we are 
schizophrenic. We don't like mandates. But we don't think that 
stands in our way. We think we can do better. We think we can 
make progress.
    Ms. Moore. Thank you so much. My time has expired.
    Chairman Gonzalez. Thank you very much.
    And before we adjourn, just--you don't have to stick 
around, if you have to be somewhere else. But I just wanted to 
follow up and end it with a couple of questions and still give 
my colleagues an opportunity.
    Ms. Kichak, going back to accountability, if an agency or a 
department receives whatever suggestions and findings that you 
make as OPM, as the overseer, as the monitor, as the one that 
promulgates best practices or identifies them, and they do 
nothing and they get a failing score on that scorecard that you 
are referring to. And maybe in a newsletter or a web site, 
again, their failings or shortcomings are highlighted, but they 
still do nothing. Where do you go from there?
    Ms. Kichak. Well, I think the publication of the data and 
the publication of the scorecard mean a lot, and I think there 
is a commitment at the highest level to that. We work with OMB. 
OMB sits down as we score. And you mentioned you think there is 
a budget, you know, there is a budget impact there.
    I think there is a great incentive with the people involved 
in doing these scorings, in doing these reviews, to try to work 
on these issues. And I know the data is not good, but we are 
showing some improvement, very slow improvement, in the number. 
I mean, there is attention being paid to this issue, and it is 
making a difference.
    Chairman Gonzalez. Okay. Mr. Stalcup, and I don't want you 
to go beyond--I know you won't anyway, because you guys are so 
darned disciplined over there.
    [Laughter.]
    What do we do about the accountability factor? Obviously, 
Congress is frustrated. I think Mr. Davis is looking at a way 
of working and setting in place some mechanism that he thinks 
will pay more attention to the problem, and maybe it will 
percolate and be better monitored, and maybe they will come up 
with some sort of consequence.
    But what about accountability? What if no one adopts best 
practices? Someone continues having a low score and just 
doesn't improve on making sure that they expand the diverse 
nature of their workforce.
    Mr. Stalcup. Well, thank you, Mr. Chairman. We have done a 
lot of work, and we have come at this with just a little bit 
different perspective. Numbers are important. Numbers don't 
lie, as long as they are accurate. And we need to know where we 
stand, whether it is against the CLF or against the relevant 
CLF. There are ways to analyze numbers.
    A few years ago EEOC issued a new Management Directive 715, 
which we thought was a major step forward in providing the 
requirement for agencies to do more in-depth analysis. My point 
being that the first step is for agencies to analyze their 
workforces and to understand where they are and to understand 
where--if there are problems in terms of numbers, that 
indicates that there are barriers of some kind. What are those 
barriers? And what can we do to get at those?
    I don't have a ready answer for you in terms of the 
accountability, but our work has gone a long way in identifying 
the value of agencies knowing where they are in terms of their 
workforce, how that workforce matches up with their mission, 
where there are gaps, developing a strategic plan and a human 
capital plan--that is going to get at those things.
    And so, again, for us step one is a better understanding of 
not only where we are but why and what can be done to change 
that.
    Chairman Gonzalez. And thank you again. And I just want 
to--again, I want to compliment you for the fine work, and I 
think you do identify the shortcomings and the problems and 
where we can improve. But you do leave it up to Congress, which 
is appropriate, for us to find some of the answers to it all.
    Mr. Hairston, I did not mean to ignore you through this 
whole proceeding. SBA obviously is very dear to us, because, 
you know, we--this Committee wouldn't basically exist, because 
that is our chief charge of what we are doing with the Small 
Business Administration. I commend you for the effort.
    I think that there is room for some improvement and such, 
but we are looking at SBA potentially being a model for other 
agencies. Obviously, there are much bigger departments and 
agencies out there. But is there anything that you would like 
to add as we wrap up the hearing?
    Mr. Hairston. Well, thank you, Mr. Chairman. Yes, I would 
like to just echo some of the comments that I have heard across 
the panel. I think what is important to this process is a 
demonstration of commitment to a diverse workforce. And I think 
our numbers bear out that historically there has been a 
commitment to a diverse workforce at SBA.
    And I believe that our practices are consistent with the 
guidance that we have received from OPM in respect to how we 
manage our SES candidate--our SES program as well as our 
candidate development programs, which is demonstrated by the 
diversity and the makeup of our SES workforce.
    There are always areas that we can improve in. We believe 
that--we strongly believe that as we go forward that more 
targeted recruitment is necessary, not only for recruiting from 
the various diverse populations, but maintaining those levels 
of diversity in our workforce.
    We are committed to doing that, the commitment is there, 
and we will continue to practice what we consider to be the 
best practices that have enabled us to achieve the results we 
have demonstrated so far.
    Chairman Gonzalez. Well, I want to again thank you, and, to 
all of the witnesses, thank you so much. And, of course, your 
written statements will be made part of the record. Again, 
there will be some follow up, if we have any additional 
questions. For many of the members that either were here today 
or they may have written questions, I appreciate a timely 
response from you.
    Again, thank you for everything that you do, and we will 
continue the conversation, and we will see where the 
legislation goes.
    And the Subcommittee will now stand adjourned.
    [Whereupon, at 1:22 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T0857.001
    
    [GRAPHIC] [TIFF OMITTED] T0857.002
    
    [GRAPHIC] [TIFF OMITTED] T0857.003
    
    [GRAPHIC] [TIFF OMITTED] T0857.042
    
    [GRAPHIC] [TIFF OMITTED] T0857.004
    
    [GRAPHIC] [TIFF OMITTED] T0857.005
    
    [GRAPHIC] [TIFF OMITTED] T0857.006
    
    [GRAPHIC] [TIFF OMITTED] T0857.007
    
    [GRAPHIC] [TIFF OMITTED] T0857.008
    
    [GRAPHIC] [TIFF OMITTED] T0857.009
    
    [GRAPHIC] [TIFF OMITTED] T0857.010
    
    [GRAPHIC] [TIFF OMITTED] T0857.011
    
    [GRAPHIC] [TIFF OMITTED] T0857.012
    
    [GRAPHIC] [TIFF OMITTED] T0857.013
    
    [GRAPHIC] [TIFF OMITTED] T0857.014
    
    [GRAPHIC] [TIFF OMITTED] T0857.015
    
    [GRAPHIC] [TIFF OMITTED] T0857.016
    
    [GRAPHIC] [TIFF OMITTED] T0857.017
    
    [GRAPHIC] [TIFF OMITTED] T0857.018
    
    [GRAPHIC] [TIFF OMITTED] T0857.019
    
    [GRAPHIC] [TIFF OMITTED] T0857.020
    
    [GRAPHIC] [TIFF OMITTED] T0857.021
    
    [GRAPHIC] [TIFF OMITTED] T0857.022
    
    [GRAPHIC] [TIFF OMITTED] T0857.023
    
    [GRAPHIC] [TIFF OMITTED] T0857.024
    
    [GRAPHIC] [TIFF OMITTED] T0857.025
    
    [GRAPHIC] [TIFF OMITTED] T0857.026
    
    [GRAPHIC] [TIFF OMITTED] T0857.027
    
    [GRAPHIC] [TIFF OMITTED] T0857.028
    
    [GRAPHIC] [TIFF OMITTED] T0857.029
    
    [GRAPHIC] [TIFF OMITTED] T0857.030
    
    [GRAPHIC] [TIFF OMITTED] T0857.031
    
    [GRAPHIC] [TIFF OMITTED] T0857.032
    
    [GRAPHIC] [TIFF OMITTED] T0857.033
    
    [GRAPHIC] [TIFF OMITTED] T0857.034
    
    [GRAPHIC] [TIFF OMITTED] T0857.035
    
    [GRAPHIC] [TIFF OMITTED] T0857.036
    
    [GRAPHIC] [TIFF OMITTED] T0857.037
    
    [GRAPHIC] [TIFF OMITTED] T0857.038
    
    [GRAPHIC] [TIFF OMITTED] T0857.039
    
    [GRAPHIC] [TIFF OMITTED] T0857.040
    
    [GRAPHIC] [TIFF OMITTED] T0857.041
    
                                 <all>

</pre></body></html>
